Executive Report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the
Los Angeles, California Police Department
GR-90-00-008November 1999Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General, has completed an audit of the use of equitable sharing revenues by the Los Angeles, California Police Department (LAPD).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

We determined that the LAPD generally accounted adequately for the receipt of equitable sharing revenues.  However, we also found the following.


The City of Los Angeles accounting system did not provide sufficient assurance that equitable sharing revenues were actually spent as reported and not spent for impermissible purposes.
	Although we did not find evidence of actual supplanting, the lack of adequate detail in the accounting system made it impossible to be certain that supplanting had not occurred.
	Contrary to guidelines published by the U.S. Department of Justice, the City of Los Angeles has included anticipated equitable sharing revenues among the sources of funds in the annual budgets for the LAPD.
	The Annual Certification Report for the fiscal year ended June 30, 1998, was submitted late.  We cannot be certain of the accuracy of the report because the accounting system did not match expenditures to the source(s) of funds.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in the Appendix.